                             AUDIT OF SBA’S
                     INFORMATION SYSTEMS CONTROLS
                            FISCAL YEAR 2004
                        AUDIT REPORT NUMBER 5-12

                                  FEBRUARY 24, 2005




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416

                                                                   AUDIT REPORT
                                                            Issue Date: February 24, 2005
                                                            Number: 5-12


To:            Stephen D. Galvan
               Chief Operating Officer
               Chief Information Officer

               Jerry E. Williams
               Acting Chief Information Officer

               Thomas A. Dumaresq
               Chief Financial Officer

               Richard Brechbiel
               Chief Human Capital Officer

                 /S/ Original Signed
From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit of SBA’s Information Systems Controls for FY 2004

       Attached is the audit report on SBA’s Information Systems Controls for FY 2004 issued
by Cotton & Company LLP as part of the audit of SBA’s FY 2004 financial statements. The
auditors reviewed the general and application controls over SBA’s financial management
systems to determine if those controls complied with various Federal requirements.


        General controls are the policies and procedures that apply to all or a large segment of an
entity’s information systems to help ensure their proper operation. General controls impact the
overall effectiveness and security of computer operations rather than specific computer
applications. Application controls are the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, payroll, grants, or
loans. Application controls help ensure that transactions are valid, properly authorized, and
completely and accurately processed by the computer. Federal requirements for general and
application controls include Office of Management and Budget Circular A-130, Security of
Federal Automated Information Resources and the Computer Security Act of 1987.




                                                 2
        The auditors concluded that SBA continued to make progress in implementing its
information systems security program, but that improvements are still needed. The report
describes areas where controls can be strengthened, such as: (1) entity-wide security program
controls, (2) access controls, (3) application software development and program change controls,
(4) system software controls, (5) segregation of duty controls, and (6) service continuity controls.
The report also provides recommendations for strengthening controls in these areas.


       Responses from the Chief Financial Officer, Chief Human Capital Officer, and Acting
Chief Information Officer (CIO) are included as attachments to this report. However, the
response from the Acting CIO was condensed and the attachments (A-D) that accompanied the
response from the Acting CIO were not included in the final report. The attachments from the
Acting CIO were reviewed and considered as part of our final report.


       SBA generally agreed with the auditor’s findings and recommendations with the
exception of finding 3A on application software development and program change control, and
finding 5A on segregation of duty controls for the Loan Accounting System (LAS). Finding 3A
and recommendation 3A were modified to more reflect what was found during audit fieldwork.
Finding 5A and recommendation 5B were not changed or modified as the CIO must adequately
ensure that security is enforced in LAS Agency-wide.


       The findings in this report are based on the auditors’ conclusions and the report
recommendations are subject to review, management decision and action by your office(s),
in accordance with existing Agency procedures for follow-up and resolution.


        Please provide us your proposed management decisions within 30 days on the attached
SBA Forms 1824, Recommendation Action Sheet. If you disagree with the recommendations,
please provide your reasons in writing.

       Should you or your staff have any questions, please contact Jeffrey R Brindle, Director,
Information Technology and Financial Management Group at (202) 205-[FOIA Ex. 2].

Attachments




                                                 3
November 15, 2004

                            AUDIT OF INFORMATION SYSTEM CONTROLS
                         FISCAL YEAR 2004 FINANCIAL STATEMENT AUDIT


Inspector General
U.S. Small Business Administration


We audited the financial statements of the U.S. Small Business Administration (SBA) as of and for the
years ended September 30, 2004, and 2003, and have issued our report thereon dated November 15, 2004.
In that report, we issued an unqualified opinion on the Fiscal Year (FY) 2004 combined statement of
budgetary resources and the FY 2003 consolidated balance sheet (as restated); issued a qualified opinion
on the FY 2004 consolidated balance sheet and statements of net costs, changes in net position, and
financing; and disclaimed an opinion on the FY 2003 consolidated statements of net cost, changes in net
position, and financing and the combined statement of budgetary resources. These financial statements
are the responsibility of SBA's management.

In planning and performing our work, we considered SBA's internal control over financial reporting by
obtaining an understanding of SBA's internal control, determining if internal control had been placed in
operation, assessing control risk, and performing tests of control. We limited our internal control testing
to those controls necessary to achieve objectives described in Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers' Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our work
was not to provide assurance on internal control. Consequently, we do not provide an opinion on internal
control.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of internal control that, in our
judgment, could adversely affect SBA's ability to record, process, summarize, and report financial data
consistent with management assertions in the financial statements.

This report is intended solely for the information and use of SBA management. We would like to express
our appreciation to the SBA representatives who assisted us in completing our work. They were always
courteous, helpful, and professional.

Very truly yours,

COTTON & COMPANY LLP


/S/ Original Signed
Charles Hayward, CPA, CISA
                            AUDIT OF INFORMATION SYSTEM CONTROLS
                         FISCAL YEAR 2004 FINANCIAL STATEMENT AUDIT
                             U.S. SMALL BUSINESS ADMINISTRATION


Cotton & Company LLP was engaged to audit Fiscal Year (FY) 2004 and 2003 financial statements of
the U.S. Small Business Administration (SBA). As part of that work, we reviewed general and application
controls over SBA’s information systems following guidance provided in the Government Accountability
Office’s (GAO) Federal Information System Controls Audit Manual (FISCAM). FISCAM incorporates
audit techniques and procedures to ensure adequate coverage of federal requirements and standards
established by:
         •      Computer Security Act of 1987.

        •       Clinger Cohen Act.

        •       Government Information Security Review Act (GISRA), now the Federal Information
                Security Management Act (FISMA).

        •       Office of Management and Budget (OMB) Circulars A-127, Financial Management
                Systems, and A-130, Management of Federal Information Resources, Appendix III,
                Security of Federal Automated Information Resources.

        •       National Institute of Standards and Technology (NIST) standards and guidelines
                contained in NIST’s Federal Information Processing Publications (FIP Pubs) and in its
                800 series Special Publications.

This report contains the results of our review and our recommendations for improvements. Control
weaknesses discussed herein have been reported in SBA’s FY 2004 financial statement internal control
report as a reportable condition.

BACKGROUND

General controls are the policies, procedures, and practices that apply to all or to a large segment of an
entity’s information systems to help ensure their proper operation. General controls affect the overall
effectiveness and security of computer operations, rather than specific computer applications. GAO
categorizes general controls as follows:

        •       Entity-wide security program controls provide a framework and continuing cycle of
                activity for managing risk, developing security policies, assigning responsibilities, and
                monitoring the adequacy of computer-related controls.

        •       Access controls limit or detect access to computer resources (data, program, equipment,
                and facilities), thereby protecting these resources against unauthorized modification, loss,
                and disclosure.

        •       Application software development and program change controls prevent
                implementation of unauthorized programs or modification to existing programs.

        •       System software controls limit and monitor access to powerful programs and sensitive
                files that control computer hardware and secure applications supported by the system.
        •       Segregation-of-duty controls provide policies, procedures, and an organizational
                structure to prevent one individual from controlling key aspects of computer-related
                operations and thereby conducting unauthorized actions or gaining unauthorized access to
                assets or records.

        •       Service continuity controls ensure that when unexpected events occur, critical
                operations continue without interruption or are promptly resumed, and critical and
                sensitive data are protected from destruction.

Application controls are the structure, policies, and procedures that apply to individual application
systems, such as accounts payable, inventory, payroll, grants, or loans. Application controls encompass
both routines contained within the computer program code and policies and procedures associated with
user activities, such as manual measures performed by the user to determine if the computer accurately
processed data. GAO categorizes application controls as follows:

        •       Authorization controls are most closely aligned with the financial statement accounting
                assertion of existence or occurrence. This assertion, in part, concerns the validity of
                transactions and that they represent economic events that actually occurred during a given
                period.

        •       Completeness controls directly relate to the financial statement accounting assertion on
                completeness, which deals with whether all valid transactions are recorded and properly
                classified.

        •       Accuracy controls directly relate to the financial statement assertion on valuation or
                allocation. This assertion deals with whether transactions are recorded at correct amounts.
                The control category, however, is not limited to financial information, but also addresses
                the accuracy of other data elements.

        •       Controls over integrity of processing and data files, if deficient, could nullify each of
                the above control types and allow the occurrence of unauthorized transactions, as well as
                contribute to incomplete and inaccurate data.

SBA’S INFORMATION SYSTEMS ENVIRONMENT

SBA’s financial management information system environment is decentralized. It is comprised of seven
major components operated and maintained by SBA offices and external contractors, as described below.

1.      Loan Accounting System (LAS), a set of mainframe programs that processes and maintains
        accounting records and provides management reports for SBA’s loan programs. The Office of the
        Chief Information Officer (OCIO) is responsible for developing and maintaining LAS system
        software and hardware. LAS is operated and maintained under contract for SBA by UNISYS at
        its Eagan, Minnesota, facility.

2.      Automated Loan Control System (ALCS), a mini-computer system maintained and operated at
        each of SBA’s four disaster area offices. ALCS tracks and processes disaster loan applications.
        After loan approval, it interfaces with LAS to update SBA’s loan records. The Office of Disaster
        Assistance (ODA) operates ALCS and is responsible for developing and maintaining system
        software and hardware.




                                                    2
3.      Denver Finance Center (DFC) systems, a variety of specialized programs developed and
        maintained by the Office of the Chief Financial Officer (OCFO). These programs perform various
        functions, such as exchanging data with SBA’s business partners, processing and maintaining
        disbursement and collection data, and interfacing with LAS.

4.      Joint Accounting and Administrative Management System (JAAMS), a client-server
        financial management system used by all SBA offices for administrative accounting functions.
        The JAAMS server and database were operated and maintained under contract for SBA by a
        third-party vendor, Corio, Inc., in Tempe, Arizona. Corio has a second facility in California
        housing the JAAMS test environment. The California facility also serves as the alternate
        computing facility for JAAMS in the event that the Tempe, Arizona facility becomes inoperable.

5.      Local- and Wide-Area Networks (LANs and WANs), communications systems maintained and
        operated by all SBA offices. LANs and WANs provide gateways to LAS, ALCS, and JAAMS;
        allow offices to share files and communicate electronically; permit the transfer of data among
        systems; and provide Internet access. OCIO develops and disseminates guidance and procedures
        for operation of these systems and periodically monitors to ensure compliance.

6.      Surety Bond Guarantee (SBG) system, a client-server system developed and maintained by
        OCIO. This system processes SBG program data and exchanges accounting information with
        JAAMS.

7.      Credit Subsidy Calculator and Monster Databases, a series of SAS and JAVA programs and
        Microsoft Excel spreadsheets developed and maintained by OCFO for calculating subsidy rates
        supporting SBA’s various direct and guarantee loan programs, consisting of the Section 7(a),
        Small Business Investment Company (SBIC) Program, Section 504, and Disaster assistance
        loans, and SBA’s secondary market guarantee program for pooled business loans accounted for in
        the Master Reserve Fund (MRF).

In addition, SBA’s financial management activities rely on systems developed, maintained, or operated by
external parties, including Corio, Inc., Colson Services Corporation, UNISYS, and the USDA National
Finance Center (NFC), for processing and exchanging data related to functions, such as loan servicing
and payroll. SBA also has acquired lock-box banking services from the Bank of America and other non-
continental domestic banks for processing checks on borrowers’ loan payments; the banks provide this
information electronically to DFC.

FY 2004 RESULTS

SBA continued to improve internal control over its information system environment during FY 2004 in
certain areas. Specifically, SBA:

        •       Conducted certification and accreditation (C&A) reviews for additional major
                applications.
        •       Continued to implement the Windows 2000 operating system at various field locations.
        •       Conducted a disaster recovery exercise.

These accomplishments were, however, overshadowed by the following identified weaknesses:

        •       SBA does not have an adequate information technology training program in place.
        •       SBA has not initiated prompt action to correct known deficiencies. Specifically, out of
                the 26 recommendations for 13 findings noted in FY 2003, 14 recommendations were not
                adequately addressed.

                                                   3
        •       Duties within financial applications are not adequately segregated. JAAMS security
                administration and user account administration privileges have been granted to several
                individuals. In addition, one user was identified as having both financial and Information
                Technology (IT) incompatible duties within JAAMS.
        •       Policies and procedures for the administration of the network operating system (Windows
                2000 O/S) have not been developed.
        •       No minimally acceptable baseline configuration exists for the Sun Solaris (UNIX)
                operating system housing JAAMS, the Windows 2000 domain controllers, the Sybase
                database management system (DBMS), and the Oracle DBMS that support JAAMS. In
                addition, we found several weaknesses within the configuration of these platforms when
                compared with federal guidance and industry best practices as promulgated by the Center
                for Internet Security on properly securing the relative platforms.
        •       Access authorizations to the SBA Network, JAAMS, LAS, and the Sybase general
                support systems are not adequate. Access authorization forms are not required for the
                network, Sybase, and LAS. Access authorization forms are required for JAAMS;
                however, not all forms could be located for review.
        •       Emergency access authorizations to SBA’s Network, JAAMS, LAS, and the Sybase
                general support system are not adequate.
        •       Network, JAAMS, and LAS password controls are weak.
        •       Review of inactive accounts is not being performed on the network, LAS, or the Sybase
                general support system.
        •       Logging and monitoring of SBA general support systems and JAAMS is not adequate.
        •       Business Resumption plans have not been completed and fully incorporated into SBA’s
                Continuity of Operations Plan (COOP).

In the remainder of this report, we discuss results of our FY 2004 review and the status of management
actions to address prior-year recommendations and new weaknesses identified in FY 2004. We also
present our recommendations for improvements. This report includes the following attachments:

               Number      Title
                 1         FY 2004 Summary of Results
                 2         Status of Prior-Year Audit Recommendations
                 3         Management Comments and Our Evaluation
                           A – Response from Acting Chief Information Officer
                           B – Response from Chief Financial Officer
                           C – Response from Chief Human Capital Officer
                           D – OCIO/OHCM/OCFO Response with Auditor Comment
                   4       Network Analysis Results (Limited Official Use and Restricted
                           Distribution)
                   5       Windows 2000 Configuration Review Results (Limited Official
                           Use and Restricted Distribution)
                   6       Oracle Database Configuration Review Results (Limited
                           Official Use and Restricted Distribution)
                   7       Sybase Database Configuration Review Results (Limited
                           Official Use and Restricted Distribution)
                   8       UNIX Configuration Review Results (Limited Official Use and
                           Restricted Distribution)




                                                    4
                                                                                         ATTACHMENT 1


                                      FY 2004 SUMMARY OF RESULTS


1. ENTITY-WIDE SECURITY PROGRAM CONTROLS

Entity-wide security program planning and management provides a framework for managing risk,
developing security policies, assigning responsibilities, and monitoring the adequacy of an entity’s
computer-related controls. SBA’s information system security program planning and management
continued to have areas of weakness. Without an effective management control structure, control
weaknesses throughout the information system and security infrastructure will continue, and specific
actions to address weaknesses will continue to be ineffective.
We identified the following entity-wide security program control weaknesses during our FY 2004
financial statement audit:

A.      A policy requiring mandatory vacation or job rotation for employees in sensitive positions has not
        been developed, and sensitive positions have not been formally identified and documented by
        OCIO. NIST Special Publication (SP) 800-14 “Generally Accepted Principles and Practices for
        Security Information Technology System” states that mechanisms besides auditing and analysis
        of audit trails should be used to detect unauthorized and illegal acts. Rotating employees in
        sensitive positions, which could expose fraudulent activities that required an employee’s
        presence, is one method that can be used.

        Recommendation 1A: We recommend that the Chief Human Capital Officer develop a policy
        requiring:

            •   Periodic job rotations and/or mandatory annual vacations for employees in sensitive
                Information Technology positions, or
            •   Temporary re-assignment of work of employees in sensitive Information Technology
                positions to other employees.

        Recommendation 1B: We recommend that the Chief Information Officer include job shift
        and mandatory vacation requirements in the Security Program Plan SOP 90-47-1 and
        develop procedures to comply with the new policy.

B.      An information technology training program has not been developed, and training and
        professional development are not documented and monitored for SBA system administration
        staff. This is especially significant for those personnel who operate SBA general support systems
        and major applications. Federal agencies cannot protect the confidentiality, integrity, and
        availability of information without ensuring that each person involved understands his or her role
        and responsibilities and is adequately trained to perform them. OCIO has not identified and
        requested the necessary resources to implement an effective employee training program.

        Audit report (OIG 2-18) issued on May 6, 2002 recommended that the Chief Operating Officer
        provide adequate funding and resources to allow OCIO to develop and implement technical
        training for security staff and all network and application security administrators. Additionally,
        audit report (OIG 4-19) issued on April 29, 2004 recommended that the Chief Information
        Officer ensure that adequate technical training for SBA personnel including network and system
        personnel in accordance with NSA, NIST and Windows 2000 best practices. SBA responded to
        the initial recommendation in report (OIG 2-18) that adequate funding for technical training
        would be implemented by March 1, 2003. This recommendation remains open and
        documentation of adequate funding has not been provided. SBA responded to one of the two
                                                                                        ATTACHMENT 1


        recommendations in audit report (OIG 4-19) that adequate technical training would be provided
        by March 31, 2005. SBA did not respond to the other recommendation which was due to OIG on
        May 29, 2004. Therefore, we are making no new recommendations at this time.

C.      SBA does not initiate prompt action to correct known deficiencies, and corrective actions are not
        monitored on a continuing basis. OCIO developed a database for tracking recommendations
        identified in prior audits; however, this database is not being adequately maintained. Out of 26
        recommendations for 13 findings noted in our FY2003 FISCAM report, 14 recommendations
        were not adequately addressed. In addition, we noted 40 recommendations in SBA’s Plan of
        Action and Milestone (POA&M) document that remained unresolved past their scheduled
        completion dates. Of these 40 recommendations, 20 were more than 200 days past their scheduled
        completion date. OCIO responded in the initial exit meeting that they did not have adequate
        resources to oversee and ensure that audit recommendations were timely adjudicated.

        Audit report (OIG 4-19) issued on April 29, 2004 recommended that the Administrator ensure
        that sufficient resources are provided to enable OCIO to meet its responsibilities under the
        Clinger Cohen Act, FISMA, and OMB Circulars A-50, A-127, and A-130. SBA has not provided
        a response to the recommendation in audit report (OIG 4-19) which was due to OIG on May 29,
        2004. Therefore, we are making no new recommendations at this time.


2. ACCESS CONTROLS

Physical and logical access controls should be designed to protect an agency’s assets against unauthorized
modification, loss, destruction, and disclosure. During the FY 2004 controls review, we performed access
control testing at the network, application, database, and operating system level. We noted the following
access controls weaknesses:

A.      Controls are not adequate to ensure that access authorizations are documented on standard forms,
        maintained on file, approved by senior managers, securely transferred to security managers, and
        that owners periodically review access authorizations to determine their appropriateness.

        NIST SP 800-14, Generally Accepted Principles and Practices for Security Information
        Technology System, states that organizations should have a process for requesting, establishing,
        issuing, and closing user accounts, and for tracking users and their respective access
        authorizations. NIST also states that it is necessary to periodically review user account
        management on a system. Reviews should examine the levels of access each individual has, the
        conformity with the concept of least privilege, whether all accounts are still active, whether
        management authorizations are up-to-date, whether required training has been completed, and so
        forth.

        Access requests to SBA’s network, LAS, and Sybase general support systems (Sybase) do not
        require documentation on standard forms that are retained. Access requests are submitted verbally
        or by e-mail to system administrators. In addition, because access requests are not being retained,
        owners are unable to periodically verify that the access users currently have was authorized.

        The OCFO does require that access requests to JAAMS be documented on the Computer Access
        Security Request Form (Form 2200) and retained; however, our review determined that controls
        over the retention of access request forms need improvement. Out of 45 active accounts sampled,
        we identified six that could not be traced to access request forms.



                                                    2
                                                                                     ATTACHMENT 1



     Recommendation 2A: We recommend that the Chief Information Officer:

           •     Develop policies and procedures requiring that access requests be documented on
                 standard access request forms and retained.
           •     Develop a policy requiring that access request forms be periodically traced to active
                 users to ensure user’s access agrees with the authorization on the access request
                 forms.

     Recommendation 2B: We recommend that the Chief Information Officer:

           •     Ensure access to JAAMS is granted only when requested via Form 2200.
           •     Ensure all access request forms are maintained on file for future reference. Access
                 request forms should be periodically traced to active user accounts to make sure
                 access in JAAMS agrees with the access that was requested and approved.

B.   Controls are not adequate to ensure that emergency access authorizations are documented on
     standard forms, are approved by appropriate managers, are securely communicated to the security
     function, and are automatically terminated after a predetermined period of time.

     Policies and procedures for granting emergency or temporary access to the network, LAS,
     JAAMS, and Sybase have not been developed and documented.

     OCIO and OFS stated that normal procedures for granting access to the network and financial
     applications would be followed in an emergency; however, the request would be prioritized and
     pushed through the normal channels more rapidly.

     In an emergency, excessive or inappropriate access may be granted. Accounts created for
     temporary access may remain active after the period of intended use, increasing the risk of
     unauthorized or malicious activities.

     Recommendation 2C: We recommend that the Chief Information Officer in conjunction with
     OCFO:

           •     Develop and document policies and procedures for granting emergency and
                 temporary access to the network, JAAMS, LAS, and Sybase.
           •     Require that emergency and temporary access request be documented on a standard
                 form and retained for future reference.

C.   Controls are not adequate to ensure that passwords for the network, LAS, and JAAMS are
     changed periodically, are at least eight alphanumeric characters in length, are prohibited from
     reuse for at least eight generations, and that attempts to log on with an invalid password are
     limited to three to five attempts. SBA’s SOP 90-47-1, Automated Information System Security
     Program, states that passwords must be at least eight characters, must be set to automatically
     expire every 90 days, and should contain a history of the last eight passwords. In addition, NIST
     SP 800-14, Generally Accepted Principles and Practices for Security Information Technology
     System, states that organizations should limit the number of failed-login attempts.

     [FOIA Ex. 2]




                                                 3
                                                                                    ATTACHMENT 1




     [FOIA Ex. 2]




     Recommendation 2D: We recommend that the Chief Information Officer:

             •   Develop procedures to ensure all network accounts are created in accordance with
                 SBA policy.
             •   Periodically review network accounts to ensure compliance with policy.

     Recommendation 2E: We recommend that the Chief Information Officer:

             •   Develop and implement program changes for LAS to force users to change their
                 password every 90 days, in accordance with SBA policy
             •   Develop and implement program changes to force LAS accounts to lock after three to
                 five failed attempts at logging in. Accounts should be locked until reset by the
                 system administrator.

     Recommendation 2F: We recommend that the Chief Financial Officer continue with the
     planned upgrade of the Oracle application and database for JAAMS. Security settings should be
     enabled to enforce strong password controls, including password history and automatic lock-out
     after a set number of failed login attempts.

D.   Controls are not adequate to ensure that inactive user accounts are monitored and removed when
     no longer needed. Periodic reviews of network, LAS, and Sybase accounts are not being
     performed. OCIO has a process in place in which they are notified by HR when employees leave
     so their accounts can be disabled or deleted; however, this process does not include contractors
     and does not identify unused accounts. If an employee’s account is not disabled or deleted during
     the exit process, it will remain active. SBA policy and NIST SP 800-14, Generally Accepted
     Principles and Practices for Security Information Technology Systems, require that accounts be
     periodically reviewed to ensure access is appropriate.
     As noted in our FY2003 report, OCIO is not performing periodic reviews of network accounts to
     remove inactive accounts in accordance with SOP 90-47-1, which states that network accounts
     should be reviewed monthly to determine continuing need. In addition, OCIO stated that they
     cannot readily identify which accounts on the network are active vs. inactive. Of the 1,483
     accounts we reviewed for inactivity, 472 accounts had not been used in more than three months.
     Responsibility for reviewing SBA’s network accounts was assigned during FY2003; however, the
     individual assigned with responsibility for this task transferred within SBA, and OCIO did not
     reassign responsibility.

     In addition to the network, OCIO is not performing periodic reviews of LAS and Sybase accounts
     to identify and remove inactive accounts. Although SBA does have a policy stating that network
                                                4
                                                                                      ATTACHMENT 1


     accounts should be reviewed on a periodic basis, no such policy or procedures exists for the
     periodic review of other system accounts. Without a policy and procedures for the periodic
     review of network and application accounts, the likelihood of unauthorized individuals gaining
     access to SBA’s network or financial application is increased. Inactive accounts could potentially
     be used by unauthorized individuals to perform malicious activities on the network.

     Recommendation 2G: We recommend that the Chief Information Officer:

             •   Conduct monthly reviews of network accounts, as required by SOP 90-47-1, to
                 include identifying inactive accounts. These accounts should be reviewed to
                 determine if they are still necessary.
             •   Investigate acquiring an automated tool to aid in differentiating active vs. disabled
                 accounts on the network.

     Recommendation 2H: We recommend that the Chief Information Officer develop a policy and
     procedures requiring the periodic review of all SBA accounts (General Support System and
     Major Application). Assign responsibility for executing these new procedures.

E.   Logging and monitoring controls at the network and application level are weak. SBA has no
     policies and procedures identifying which activities should be logged and how to determine these
     activities, and has not specified who should review logs and how often. SBA briefly discusses
     logging in their Procedural Notice 9000-1407 and SOP 90-47-1; however, not at a level sufficient
     to ensure that individuals know what to log, who should review the logs, what the logs should be
     reviewed for, and how often they should be reviewed.

     From our review of the network, LAS, Sybase, and JAAMS, we determined that logging and
     monitoring activities are not occurring on SBA’s general support systems and major applications.

     Specifically:
             •   Activities on SBA’s network are being logged; however, these logs are not being
                 reviewed on a regular basis. When the logs are reviewed, it is by the Network
                 Integration Branch (NIB) and not OCIO security. In addition, we determined that
                 logs are only retained for two weeks before they are overwritten due to limited
                 storage capacity.
             •   Database administration activities in the Oracle database supporting JAAMS are not
                 logged. The only logging enabled at the database level is for the tracking of two SBA
                 employees with powerful access rights. In addition, although OCFO claimed they are
                 using forms-level auditing on the JAAMS application, they could not provide
                 sufficient information to detail what activities were logged, who reviewed these logs,
                 what the logs were reviewed for, and how often they were reviewed.
             •   Logging was not enabled in Sybase, therefore Sybase activity was not being
                 adequately monitored.
             •   Logging and monitoring of activities within LAS is not taking place. LAS does log
                 activities such as failed logons however no individual in OCIO is currently assigned
                 with responsibility for reviewing these logs.

     Recommendation 2I: We recommend that the Chief Information Officer for all SBA internal
     and contractor supported general support systems and major applications e.g. Egan Mainframe;
     SBA and Corio UNIX; Network and Windows 2000; Loan Accounting System, Sybase,
     Mainframe; JAAMS Oracle, and related application functions:



                                                  5
                                                                                     ATTACHMENT 1


             •   Develop and document policies and procedures clearly outlining what activities
                 should be logged, who should be responsible for reviewing logs, what the logs should
                 be reviewed for, how often logs should be reviewed, and how long logs should be
                 retained.
             •   Assign responsibility within OCIO Security for the review of application and general
                 support system security logs.
             •   Retain audit logs for a sufficient period of time (at least 90 days).

     Recommendation 2J: We recommend that the Chief Financial Officer:

             •   Require that all activities by Oracle database administrators be logged.
             •   Require periodic review of database logs by someone outside of Corio, preferably an
                 individual within OFS or OCIO Security with an understanding of the production
                 Oracle database. Audit logs should not be reviewed by the individuals being audited.
             •   Take steps necessary to ensure all activity in JAAMS involving access to and
                 modifications of sensitive or critical files at the application level are logged.
             •   Assign responsibility for the periodic review of JAAMS application logs.

F.   Controls over the Oracle database supporting JAAMS are weak. [FOIA Ex. 2]




     Our review identified system configuration and logical access control vulnerabilities. The specific
     security related conditions are detailed in Attachment 6 (Limited Official Use and Restricted
     Distribution).

     We identified 42 vulnerabilities, of which 4 were considered high risk, 16 medium risk, and 22
     low risk. The following conditions contributed to the high-risk vulnerabilities.

     Recommendation 2K: We recommend that the Chief Information Officer in conjunction with
     OCFO:

         •   Use the CIS benchmark to ensure that adequate security is incorporated into the planned
             Oracle upgrade.

         •   Develop a minimally accepted security baseline configuration for the Oracle database
             platform which would be utilized for all SBA Oracle database management systems.

G.   Controls over SBA’s Sybase database are weak. Our review identified system configuration and
     logical access vulnerabilities. Specific security related conditions are detailed in Attachment 7
     (Limited Official Use and Restricted Distribution).

     Of the 23 vulnerabilities identified one was considered high risk, 13 medium risk, and the
     remaining nine were considered low risk.


                                                 6
                                                                                             ATTACHMENT 1


         [FOIA Ex. 2]




         Recommendation 2L: We recommend that the Chief Information Officer develop and
         implement a corrective action plan with specific milestones to address the database weaknesses
         identified in Attachment 7 (Limited Official Use and Restricted Distribution) in a timely manner.
         In addition, we recommend that OCIO develop a minimally accepted security baseline
         configuration for the Sybase platform which would be utilized for all SBA Sybase database
         management systems

3.       APPLICATION SOFTWARE DEVELOPMENT AND PROGRAM CHANGE
         CONTROLS

SBA’s application software development and program change controls should be designed to prevent
implementation of unauthorized programs and modifications to existing programs, and should ensure that
security is adequately incorporated into the development and change of programs. Our review of change
controls for JAAMS and LAS identified the following weaknesses:

A.       Change controls for LAS need improvement. Through our change control testing for LAS, we
         determined that OCIO personnel responsible for maintaining LAS were not aware of documented
         change control procedures for LAS, nor SDM configuration management procedures Agency-
         wide.

         In addition, we determined that:
              • Test plan standards for LAS have not been developed for all levels of testing that define
                  responsibilities for each party,
              • Documentation standards have not been developed that defines a sufficient amount of
                  documentation on changes to code and operational procedures,
              • LAS data center supervisors and/or security officers do not periodically review
                  production program changes to determine whether access controls and change controls
                  have been followed.

         When documented change control policies and procedures are not adequately communicated and
         enforced, SBA has less assurance that changes introduced into production have gone through
         necessary controls. Changes introduced into production may contain malicious or harmful code or
         can potentially have a negative impact on the functionality of the application.

Recommendation 3A: We recommend that the Chief Information Officer:

     •   Provide software developers, testers, and IT management with ongoing training in software development,
         testing and acceptance procedures,
     •   Define sufficient documentation standards for LAS, and
     •   Define sufficient test standards and procedures for LAS.




                                                        7
                                                                                          ATTACHMENT 1



4.      SYSTEM SOFTWARE CONTROLS

Properly designed system software controls limit and monitor access to programs and files that control
computer hardware and protect applications. We identified security control weaknesses with the network
operating system that reduce the effectiveness of controls to protect network operations from
unauthorized activities from internal sources. In addition, we identified weaknesses with the UNIX
operating system supporting JAAMS.

OMB Circular A-130, Appendix III, requires agencies to establish and implement adequate technical
security controls to secure and safeguard data, software, and hardware from theft, misuse, alteration, and
unauthorized access. Additionally, NIST, CIS, and the National Security Agency (NSA) have developed
standards for securing Windows 2000 and UNIX environments.

A.      We conducted a scan of SBA’s network to identify and assess the level of risk using a
        vulnerability scanning tool to identify SANS (SysAdmin, Audit, Network, Security) Institute
        "Top 20" security vulnerabilities. Our scan assessed whether SBA network servers had been
        properly configured, and network operating system software had been updated with vendor
        patches designed to properly address known vulnerabilities. A list of the most frequent
        vulnerabilities found within the SBA network is included in Attachment 4 (Limited Official Use
        and Restricted Distribution). Full details of vulnerabilities found are provided in separate reports
        that have been provided to OCIO and OIG.

        The scan disclosed significant exposures on network resources residing on the SBA network.
        These exposures were primarily the result of the following:

                •   Vendor patches and security hot-fixes were not installed in a timely manner.
                •   Network servers, routers, and workstations were not properly configured.

        Although OCIO developed procedures to ensure patches and security hot-fixes were implemented
        in a timely manner and to ensure network servers are properly configured, the procedures were
        inconsistently applied.

        Audit report (OIG 4-19) Attachment 4 (Limited Official Use and Restricted Distribution) issued
        on April 29, 2004 in recommendation 4A(1), recommended that the Chief Information Officer
        develop and implement a corrective action plan to address the vulnerabilities identified in that
        report. SBA responded that a corrective action plan would be completed by March 31, 2005. We
        are augmenting that recommendation to included the vulnerabilities identified in this year’s
        Attachment 4 (Limited Official Use and Restricted Distribution), which identify the
        vulnerabilities our current years’ Network scan.

        Recommendation 4A: We recommend that the Chief Information Officer develop and
        implement a corrective action plan with specific milestones to address network weaknesses
        identified in Attachment 4 (Limited Official Use and Restricted Distribution) of this years’ report
        and the detailed vulnerability assessment reports in a timely manner.

B.      Although OCIO installed a network intrusion detection system (IDS) and contracted with a
        vendor to monitor IDS activities and maintain and review all IDS activity logs, OCIO had not
        developed written policies or procedures to establish requirements and ensure performance. We
        commend OCIO for recognizing the need for installing additional server sensor devices on the
        network. OCIO plans to add another 20 sensors during FY 2005.


                                                      8
                                                                                   ATTACHMENT 1


     Audit report (OIG 4-19) issued on April 29, 2004 recommended that the Chief Information
     Officer perform a security assessment for the placement of the initial 20 network sensors. SBA
     responded that the analysis would be completed by February 28, 2005. Therefore, we are making
     no new recommendation at this time.

     Additionally, audit report (OIG 4-19) issued on April 29, 2004 recommended that the Chief
     Information Officer revise the IDS vendor’s contract as necessary for performance factors
     established in Recommendation No. 4A of this report. SBA responded that the IDS vendor’s
     contract would be revised by February 28, 2005. Therefore, we are making no new
     recommendation in at this time.

C.   The FY 2002 FISCAM report recommended that OCIO develop the means to test for compliance
     with SBA’s password configuration requirements. In FY 2003, OCIO obtained password-
     cracking software to periodically test user password configurations for compliance with SBA's
     password configuration requirements and to determine if users were using easily guessed
     passwords. Although OCIO’s test process achieved the stated goals, the test process was neither
     effective nor efficient and created potential security exposures if cracked passwords were
     inadvertently or intentionally released to unauthorized individuals. OCIO cracks all user
     password files and assesses the time required to crack as an indicator of complexity. For
     passwords that crack quickly, OCIO determines what caused the password to crack and advises
     the user of corrective action.

     We found that password strength of SBA user passwords is weak. We identified the following:
            • 173 passwords were cracked using only alpha characters,
            • 13 passwords were cracked using only numeric characters, and
            • 255 passwords were the same as the associated user ID.

     All of these instances are violations of the SBA password policy. Some of the cracked passwords
     were for accounts that have administrative permissions to the domain and to all workstations.
     Audit report (OIG 4-19) issued on April 29, 2004 recommended that the Chief Information
     Officer enhance password test procedures to screen all passwords for compliance with password
     configuration policy. SBA has not provided a response to the recommendation in audit report
     (OIG 4-19) which was due to OIG on May 29, 2004. Therefore, we are making no new
     recommendations at this time.

     Audit report (OIG 4-19) issued on April 29, 2004 recommended that the Chief Information
     Officer in consultation with OHCM, develop procedures for escalating administrative
     consequences for personnel identified as not compliant, such as:

        •   Advise first-time offenders to immediately change their passwords to conform to the
            policy.

        •   Temporarily disable accounts for a second offense and notify the account owner and his
            or her supervisor.

        •   Suspend accounts for a third offense and send a request for adverse personnel action to
            the office director of OCHM and to the account holder.

     SBA has not provided a response to the recommendation in audit report (OIG 4-19) which was
     due to OIG on May 29, 2004. Therefore, we are making no new recommendations at this time.


                                                9
                                                                                     ATTACHMENT 1


D.   [FOIA Ex. 2]




     Recommendation 4B: We recommend the Chief Information Officer develop minimally
     acceptable baseline configurations based on guidance from NSA, NIST, CIS, SANS, and industry
     best practices for Windows 2000 Domain Controllers. In addition, these baseline configurations
     should address all the issues identified above based on the source used for developing the
     baselines and the settings and policies should be put into place.

E.   Policies and procedures for the administration of system software (Windows O/S) have not been
     developed and documented. OCIO has not identified and documented what administrative
     functions for the administration of Windows should be segregated and what access each
     administrator should have. Individuals within the NIB are granted similar access for
     administering the network operating system.

     Conversion from Windows NT to Windows 2000 has not been completed. Without documented
     policies and procedures for identifying, selecting, installing, and modifying system software,
     SBA cannot be sure of system integrity. In addition, controls over sensitive functions within the
     operating system are weakened, and individuals with administrative access could intentionally or
     unintentionally change system settings in an unauthorized manner, adversely affecting the
     performance or security of the operating system.

     Audit report (OIG 2-18) issued on May 6, 2002 recommended that the Chief Information Officer
     develop and implement standard operating procedures for network system and security
     administrators that provide adequate guidance, describe procedures for maintaining the network
     and other system accounts, and ensure that accounts belong only to authorized individuals. SBA
     responded that standard operation procedures for network and system accounts would be
     implemented by December 1, 2003. However, this recommendation remains open at this time.
     Since this recommendation remains open, we are augmenting this recommendation at follows:

     Recommendation 4C: We recommend that the Chief Information Officer:

     •       Develop policies and procedures for the administration of and restriction of access to
             system software.
     •       Develop policies and procedures for identifying, selecting, and modifying system
             software.
     •       Identify and document appropriate administrative access to system software.
     •       Ensure individuals with administrative access to system software require such access.
             Individuals should be granted the minimum level necessary to perform their assigned
             responsibilities.

F.   We identified weaknesses in the UNIX operating system supporting JAAMS. Our analysis of the
     standard configuration documentation and operating system installation identified several issues
     and are included in Attachment 8 (Limited Official Use and Restricted Distribution). FISMA
     requires agencies to develop baselines for their systems to ensure security is adequately
     addressed.

                                                10
                                                                                         ATTACHMENT 1


        Audit report (OIG 4-41) issued on September 10, 2004 recommended that the Chief Information
        Officer:

        •   Develop a standard baseline configuration that outlines security configurations for all UNIX
            operating systems at SBA. Best practice documents such as the CIS Solaris Benchmark, Sun
            Microsystem’s Blueprint documents, and NSA’s Guide to Securing Solaris should be used to
            develop these documents to ensure compliance with best practice standards.

        •   Implement the standard baseline configuration on all UNIX servers which support all major
            SBA applications including those servers owned and operated by SBA as well as those under
            contract to the various SBA offices.

        •   Ensure that the standard baseline configuration for all UNIX servers is enforced by the SBA
            Certification and Accreditation (C&A) process.

        SBA responded that a standard baseline configuration UNIX servers would be developed by
        September 30, 2005. Additionally, SBA responded that this baseline would be implemented on
        all UNIX servers Agency-wide by September 30, 2005. Finally, SBA responded that the standard
        baseline for all UNIX servers would be enforced by the C&A process by September 30, 2005.
        Therefore, we are making no new recommendations at this time.

5.      SEGREGATION-OF-DUTY CONTROLS

An appropriately designed organizational structure with well-designed roles and responsibilities will
minimize the risk that unauthorized actions take place undetected.

OMB Circular A-130, Appendix III, requires agencies to establish and implement controls within the
general control environment and major applications that support the "least privilege" practice. Appendix
III also requires establishing and implementing practices to divide steps of critical functions among
individuals and establishing practices to keep a single individual from subverting a critical process.

A.      SBA does not ensure that separation of duty principles are established, enforced, and
        institutionalized within the organization. Controls are not adequate to ensure that no individual
        has complete control over incompatible administrative and transaction processing functions.

        Our audit identified two individuals with excessive or incompatible responsibilities assigned to
        their account in JAAMS. Incompatible or excessive duties identified include:

        •       Security administration of JAAMS has been assigned to an individual within OCIO. We
                noted that this individual’s account was assigned System Administrator and Security
                Manager Responsibilities. Separation of duty principles suggest that security
                administration and user account administration functions should be separated.
                Individuals assigned to review system access should not have the ability to add, modify,
                or delete accounts within production.

        •       OCFO has assigned the following excessive responsibilities in production to one of their
                programmers; SBA System Administrator, SBA Maintenance, SBA NFC Payroll
                Processing, SBA Credit Card, Alert Manager, Federal Administrator, Application
                Developer, SBA Translation Manager, and General Ledger Super User.

        Our audit of LAS identified 57 users with Terminal User and Agency/Regional/District Security
        Officer responsibilities. These 57 individuals have the ability to add, modify, and delete user

                                                    11
                                                                                         ATTACHMENT 1


        accounts under their security officer accounts and are normal users within their terminal user
        accounts. Separation of duty principles suggest that system or security administration and data
        entry functions should not be performed by the same individuals. Administration of LAS is not
        centralized. Field locations are assigning system administrator duties to individuals who also
        perform financial activities within LAS.

        Without sufficient controls to ensure proper separation of duties, individuals may have complete
        control over incompatible transaction processing functions that could permit fraudulent activities.
        Fraudulent activities could include creating fictitious user accounts and permitting unauthorized
        access.

        Recommendation 5A: We recommend that the Chief Financial Officer identify individuals with
        incompatible or excessive responsibilities within JAAMS. These include the following
        privileges:
             • Alert Manager,
             • Application Developer,
             • Federal Administrator,
             • General Ledger Super User,
             • SBA Credit Card,
             • SBA NFC Payroll Processing,
             • Systems Administration,
             • Systems Maintenance, and
             • Translation Manager.

        Incompatible or excess responsibilities should be removed or management should document the
        reason for granting these responsibilities and ensure compensating controls are in place to
        monitor activities by these individuals. Review of activities by individuals with excessive or
        incompatible duties should be documented and signed off by management.

        Recommendation 5B: We recommend that the Chief Information Officer:

        •       Centralize the administration of LAS or putting compensating controls in place for the 57
                individuals identified as having incompatible duties.
        •       Periodically review access to LAS to ensure proper separation of duties exist.

B.      Day-to-day operating procedures for the headquarters data center are not adequately documented
        and prohibited actions are not identified. Resources have not been allocated to develop and
        document day-to-day operating procedures for the data center. Data center staff may not follow
        proper procedures, which can lead to problems with SBA information technology services.

        Recommendation 5C: We recommend Chief Information Officer develop and document day-to-
        day operating procedures for the headquarters data center.

6.      SERVICE CONTINUITY CONTROLS

Properly designed service continuity controls increase the assurance that normal business operations can
continue with minimal disruption when unexpected events occur.

OMB Circular A-130, Appendix III, requires an agency to establish and periodically test its capability to
continue to provide services within a system based upon user needs and priorities. Furthermore, agencies
are required to establish and periodically test the capability to perform agency functions supported by the
application in the event of failure of its automated support.
                                                    12
                                                                                     ATTACHMENT 1



A.   SBA cannot ensure that operations can be resumed within an acceptable period of time in the
     event of a disaster or disruption in service. SBA’s Continuity of Operations Program (COOP)
     consists of detailed Business Resumption Plans (BRPs) for the various offices and field sites
     within SBA. OCIO is in the process of collecting these plans from the various offices for review
     and comment. Once all plans have been completed and submitted to OCIO, OCIO intend to help
     the offices test their plans. SBA has performed some testing on their COOP; however, testing
     was limited to selected portions of the COOP.

     Our review of nine headquarters BRPs determined that many of the plans were incomplete. The
     following information was missing from all or some of the plans we reviewed:

     •       A list of critical operations and data has not been documented that prioritizes data and
             operations. Six out of the nine headquarter BRPs we reviewed did not have a prioritized
             list of data and operations. We did note that SBA does have an entity-wide prioritized
             list of critical data and operations in Attachment III of the HQ COOP.

     •       Resources supporting critical operations have not been identified and documented. Types
             of resources identified should include:
                 o computer hardware
                 o computer software
                 o computer supplies
                 o system documentation
                 o telecommunications
                 o office facilities and supplies
                 o human resources

     •       Emergency processing priorities have not been documented and approved by appropriate
             program and data processing managers.

     •       A system disaster recovery plan for the LAS has not been fully documented that
             identifies critical data files and restoration procedures between the Egan mainframe and
             the SBA Sybase server systems to ensure that both systems adequately interface and
             operate in the event of an emergency.

     •       SBA has not tested all BRPs, and a deadline for completion of BRPs has not been set.

     In the event of a disaster or disruption in service, SBA may not be able to resume operations
     within an acceptable period of time. In addition, in the event of a disaster, SBA may not know
     which processes to recover first, what offices are involved in recovery, who is responsible, and
     what supporting or other resources will be needed.

     Recommendation 6A: We recommend that the Chief Operating Officer:

     •       Establish a deadline for the completion of all BRPs,
     •       Ensure all BRPs submitted are complete. In addition, information from the various BRPs
             should be used to update SBA’s COOP where necessary,
     •       Comply with SBA policy which requires a prioritized list of critical data and operations
             be established and documented in agency BRPs,
     •       Work with the various offices to identify resources supporting mission critical functions.
             Resources should be documented and included in SBA’s COOP,


                                                 13
                                                                             ATTACHMENT 1


•      Identify and document emergency processing priorities in the HQ COOP and work with
       each office to establish a set of emergency processing priorities. Emergency processing
       priorities should be documented in BRPs and updated on a periodic basis,
•      Work with the various offices within SBA to ensure all BRPs are tested, and
•      Results from testing should be used to update or modify the plan where necessary.

Recommendation 6B: We recommend that the Chief Information Officer develop a system
disaster recovery plan for LAS (both Egan mainframe and SBA’s Sybase servers) to ensure that
all facets of LAS can recover if both or either aspects of the system are disabled during an
emergency.




                                          14
                                                                                                    ATTACHMENT 2


                            AUDIT OF INFORMATION SYSTEM CONTROLS
                                          FOR FY 2004
                         STATUS OF PRIOR-YEAR AUDIT RECOMMENDATIONS


               Condition                                     Recommendation                            Status as of
                                                                                                         9/30/04

ENTITY-WIDE SECURITY
PROGRAM CONTROLS:

OIG Report 4-19, Finding 1A: SBA’s          Recommendation 1A: SBA Administrator ensure                   OPEN
information system and security program     that sufficient resources are provided to enable
did not provide assurance that the          OCIO to meet its responsibilities under the Clinger           Sufficient
program complied with requirements          Cohen Act, FISMA, and OMB Circulars A-50, A-               resources have
established by federal laws, regulations,   127, and A-130.                                               not been
and standards.                                                                                           provided to
                                                                                                      enable OCIO to
                                                                                                           meet its
                                                                                                      responsibilities.


OIG Report 4-19, Finding 1A: SBA’s          Recommendation 1B: The Chief Information                       Open
information system and security program     Officer revise and enhance existing policies and
did not provide assurance that the          procedures to ensure that:                               Control
program complied with requirements                                                                   weaknesses
established by federal laws, regulations,      •   Chief Information Officer (CIO) revise and        identified from
and standards.                                     enhance existing policies and procedures to       prior year reports
                                                   ensure that:                                      have not been
                                                                                                     corrected and a
                                               •   Control weaknesses identified in certification    technical training
                                                   and accreditation reviews and audit reports       program has not
                                                   are resolved in a timely manner and senior        been
                                                   management is provided timely information         implemented and
                                                   regarding the progress towards implementing       provided to
                                                   corrective actions.                               OCIO staff.

                                               •   OCIO monitoring controls are effective to         See finding 1C in
                                                   preclude reoccurrence of previously noted         Attachment 1.
                                                   weaknesses.

                                               •   Technical personnel are provided technical
                                                   training to enable personnel to successfully
                                                   carry out their duties and responsibilities.

                                               •   Technical skills are sufficient to meet new
                                                   technical requirements prior to implementing
                                                   new hardware and software.

                                               •   OCIO effectively participates in all phases of
                                                   system development in a timely manner to
                                                   ensure that system controls are properly
                                                   designed and developed to provide adequate
                                                   security; and data reliability, completeness,
                                                   and accuracy for all significant system
                                                   initiatives both within and outside of OCIO.
                                                                                                   ATTACHMENT 2


               Condition                                      Recommendation                           Status as of
                                                                                                         9/30/04

OIG Report 4-19, Finding 1B: OCIO            Recommendation 1C: We recommend that the                   Partially
had not implemented procedures to            Chief Information Officer, in conjunction with             Complete
monitor and report management’s actions      system owners:
to address and resolve weaknesses                                                                    Plans of action
identified during system certification and   (1) Develop policies and procedures to require          and milestones
accreditation reviews, audits, and               system owners to provide plans of action to         have been
management reviews. OCIO did not                 OCIO for correcting weaknesses identified           identified and
monitor system owner implementation of           from audits, management reviews, and                developed from
corrective actions to ensure that program        certification and accreditation reviews.            audits,
offices address weaknesses identified                                                                management
during certification and accreditation       (2) Ensure that plans adequately address                reviews and
reviews in a timely manner. As a result,         management actions to resolve or minimize           certification and
OCIO was not fully compliant with                weaknesses in the short term while                  accreditation
FISMA, OMB circulars, and NIST                   implementing longer term system corrective          reviews.
standards.                                       actions. Develop reporting processes to follow-     However, they
                                                 up on system owner corrective action plans.         are not always
                                                                                                     complete.
                                             (3) Ensure that sufficient resources are made
                                                 available to monitor system owner corrective        Monitoring of
                                                 action plans.                                       system owner
                                                                                                     corrective action
                                                                                                     plans does not
                                                                                                     take place.

                                                                                                     OCIO currently
                                                                                                     attempts to
                                                                                                     follow up with
                                                                                                     weaknesses in
                                                                                                     the POA&M in
                                                                                                     the next
                                                                                                     certification and
                                                                                                     accreditation
                                                                                                     which is
                                                                                                     generally three
                                                                                                     years later.

OIG Report 2-18, Finding 1C: SBA             Recommendation 1C: Develop an agency-wide                     Open
has not developed an agency-wide             security plan, as recommended in Section 5.8 of
integrated security plan for                 SBA’s Information Technology Architecture Plan, to
implementing and integrating SOP             establish and implement the policies, procedures, and
                                             practices for the following:
requirements into OCIO’s security
program as required by Section 5.8.1
                                                 •   Full integration of the information security
of SBA’s FY 2000 Information                         approach and implementation process,
Technology Architecture Plan.                        along with key milestones for implementing
                                                     the program.

                                                 •   Coordination among program offices to
                                                     support their security needs.

                                                 •   Guidance to the program office for effective
                                                     implementation of information system
                                                     security controls.


                                                         2
                                                                                                        ATTACHMENT 2


               Condition                                        Recommendation                             Status as of
                                                                                                             9/30/04
                                                   •    Methods to monitor the effectiveness of
                                                        each part of the information technology
                                                        security assigned to each program office.


ACCESS CONTROLS:

OIG Report 4-19, Finding 2A: Controls       Recommendation 2A: We recommend that the                          Open
over the administration of network and      Chief Information Officer:
financial application accounts were not                                                                  Weaknesses in
effective. OCIO developed and               (1) Implement procedures to ensure compliance                network and
disseminated Procedural Notice 9000-            with Procedural Notice 9000-1406, "Removal               financial system
1406 "Removal of Old Computer User              of Old Computer User Accounts."                          account
Accounts" during FY2003 in response to                                                                   administration
our prior-year recommendation in this       (2) Require network security administrators to               were identified
area however, this procedural notice is         review all current network accounts to identify          during the
not being followed by all parties. We           and eliminate unnecessary accounts and require           FY2004 audit.
identified administrators not following         periodic documented reviews of all generic
established policies and procedures when        network accounts to ensure that they are                 See finding 2D
adding or modifying accounts. Although          authorized and needed.                                   in Attachment 1.
OCIO did not have administrative
responsibilities for all systems and the    (3) Provide resources sufficient to monitor and
network, it was responsible for ensuring        assess network administration activities to
that all SBA program offices complied           ensure compliance with federal laws and
with OCIO security policy, standards, and       regulations, SBA policies and procedures,
requirements.                                   NIST guidance, and industry best practices.

                                            (4) In coordination with program directors, develop
                                                procedures for controlling contractor personnel
                                                access to the network and applications.
                                                Procedures should be established to:

                                               •       Require Contracting Officers’ Technical
                                                       Representatives (COTRs) to notify security
                                                       administrators in writing of each contractor
                                                       personnel needing a network and application
                                                       account along with privileges to assign to the
                                                       account.

                                               •       Require all network and application accounts
                                                       established for contractor personnel to be
                                                       established with a renewal or termination
                                                       date not to exceed one year or the length of
                                                       the contract, whichever is less.

                                            (5) In coordination with Office of Human Capital
                                                Management (OHCM), develop procedures for
                                                network and application security administrators
                                                to receive notification of termination of SBA
                                                employees.



OIG Report 4-19, Finding 2B: Physical                                                                         Closed
                                            Recommendation 2B: We recommend that the
controls over hardware at DFC were
                                            Chief Financial Officer instruct the Director of DFC
weak. Routers connected to the DFC                                                                       DFC has
                                                            3
                                                                                                     ATTACHMENT 2


                 Condition                                     Recommendation                              Status as of
                                                                                                             9/30/04
network were located in an unsecured           to establish adequate physical security for routers by   enclosed the
area of the building. Anyone entering the      either moving the routers to a restricted area where     switches and
building, after passing through security,      access is limited to only authorized individuals,        limited access to
could potentially gain access to these         such as the server room, or develop compensating         them using a
routers and disconnect the wires               controls, such as constructing a security cage.          padlock.
connected to them, thus bringing down
portions of the network.


OIG Report 4-19, Finding 2C:                   Recommendation 2C: We recommend that the                       Open
[FOIA Ex. 2]                                   Chief Information Officer:

                                               (1) [FOIA Ex. 2]

                                               (2) Create new network accounts for non-
                                                   headquarter network administrators with
                                                   limited domain administrative privileges to add
                                                   and delete users and add, delete, and modify
                                                   objects within office Organization Units.

                                               (3) Develop and implement procedures to perform
                                                   periodic reviews of highly-privileged accounts
                                                   to assess the continuing need for accounts and
                                                   privileges.




                                                                                                              Open
OIG Report 2-18, Finding 2A: System            Recommendation 2B: We recommended in our
administrators (network and LAS) at            Information System Controls Report for FY 2001
                                                                                                        See finding 4E
SBA field offices are not effectively          (OIG 02-18) that SBA develop and implement
                                                                                                        in Attachment
carrying out their duties and                  standard operating procedures for network system
                                                                                                        1.
responsibilities. Additionally, OCIO has       and security administrators that provide adequate
not established a method to monitor field      guidance, describe procedures for maintaining the
office security activities. For instance, we   network and other system accounts, and ensure that
observed the following during field office     accounts belong only to authorized individuals.
visits:                                        These procedures should:
• LAS security administrators at some
    offices are providing all users with the       •   Provide guidance and technical training
    same privileges.                                   opportunities for all network and
•   Some LAS user account privileges are               application security administrators
    excessive.                                         describing expected duties and supporting
•   Server security settings are not always            successful performance of these duties.
    configured correctly.
•   Not all network user accounts are              •   Require spot checks of field office servers
    properly set up or monitored, require              for compliance with established rules.
    passwords, or require passwords to be
    changed every 90 days.                         •   Conduct physical security reviews of
•   System administrators do not always                workstations.
    set all accounts to lock out or become

                                                           4
                                                                                                  ATTACHMENT 2


                Condition                                   Recommendation                            Status as of
                                                                                                        9/30/04
   disabled after three failed login         SBA agreed with this recommendation and initially
   attempts.                                projected a completion date of November 1, 2002.
                                            This projected completion date was later modified
                                            to December 1, 2003.

                                                                                                        Closed
OIG Report 3-20, Finding 2A:                Recommendation 2A: We recommend that the
Excessive privileges have been granted      Chief Human Capital Officer review duties and
to the payroll/personnel systems.           eliminate excessive access granted to the NFC
Additionally, over 30 different security    payroll/personnel system. We also recommend that
profiles have been established for the      OHCM review its current security profiles and
payroll/personnel system. Most of these     reduce the number of profiles commensurate to job
profiles are for on individual. The         responsibilities.
combination of these two issues weakens
application security controls.


OIG Report 3-20, Finding 2B: OCIO           Recommendation 2B: We recommended in our                    Closed
and OHCM have undocumented                  Information Systems Controls Report for FY 2001
procedures for informing security           (OIG 02-18) that OCIO and OHCM formally
personnel of staff separations. By using    document staff separation procedures. SBA agreed
informal separation procedures, the risk    with this recommendation and initially projected a
of an unauthorized user having access to    completion date of November 1, 2002. This date
a system is increased.                      was later modified to February 20, 2003.

OIG Report 2-18, Finding 2A: and            Recommendation 2C: We recommended in our                     Open
OIG Report 3-20, Finding 2C: OCIO           Information System Controls Report for FY 2001
has not adequately developed and            (OIG 02-18) that SBA develop and implement              See finding 1B
provided technical training for personnel   technical training for security staff and all network   Attachment 1.
performing security administration          and application security administrators. SBA agreed
activities either at the network or         with this recommendation and initially projected a
application level.                          completion date of November 1, 2002. This date
                                            was later modified to December 1, 2003.



APPLICATION DEVELOPMENT
AND SOFTWARE CHANGE
CONTROLS:
OIG Report 4-19, Finding 3A: Change         Recommendation 3A: We recommend that the                    Closed
control policies and procedures for         Chief Financial Officer require that OFM ensure
JAAMS and Financial Reporting               that all change control forms are complete before
Information System (FRIS) are not being     changes are released in the production environment
properly followed at DFC, because           and signatures are present for all spaces provided.
required signatures on SBA’s System
Implementation Order/Change Control
forms are missing.


OIG Report 4-19, Finding 3B: OCFO’s         Recommendation 3B: We recommend that the:                   Closed
Credit Reform Models did not comply
with change control policies, procedures    (1) Chief Financial Officer formalize the change
and documentation requirements in               control, testing, acceptance, documentation
Federal Accounting Standards Advisory           standards, and validation procedures for the
Board (FASAB) Technical Releases No.            Credit Reform Models to conform with FASAB
3 and No. 6 or SBA system development           Technical Release No. 3 and No. 6 and SBA
                                                       5
                                                                                                     ATTACHMENT 2


               Condition                                     Recommendation                             Status as of
                                                                                                          9/30/04
and program change control policies and          system development and program change
procedures. This occurred because:               control policies and procedures.

• Actual changes to the formulas within     (2) Chief Information Officer develop the means to
  Credit Reform Models were not                 actively participate in all phases of system
  tracked,                                      development efforts within the agency.
• Change policies to the models were
  informal and were not rigorously
  followed,
• Computations could not be
  reperformed, and
• Documentation needed to support
  computations did not exist.

Federal Financial Accounting and
Auditing Technical Release No. 3:
Preparing and Auditing Direct Loan and
Loan Guarantee Subsidies under the
Federal Credit Reform Act of 1990
(FCRA), also broadly requires agencies
to maintain internal controls over models
in each of the following categories:

•   Control environment
•   Risk assessment
•   Control activities
•   Information and communication
•   Monitoring

The Office of Inspector General (OIG)
released Audit Report No. 3-39,
Monitoring of SBA’s Implementation of
the Disaster Credit Management System
in September 2003; this report identified
OCIO’s non-compliance with its System
Development Life Cycle (SDLC) policy
and procedures relating to OCIO’s lack
of involvement with new systems being
developed.

OIG Report 4-19, Finding 4C: The OIG        Recommendation 3C: We recommend that the                       Open
released Audit Report No. 3-39,             Chief Information Officer develop the means to
Monitoring of SBA’s Implementation of       actively participate in all phases of system
the Disaster Credit Management System       development efforts within the agency.
in September 2003; this report identified
OCIO’s non-compliance with its SDLC
policy and procedures relating to OCIO’s
lack of involvement with new systems
being developed.

OIG Report 1-12, Finding 3:                 Recommendation 3A: We recommend that the
Documentation for system and program        Chief Information Officer develop quality control              Open
changes was outdated, and documentation     program procedures to periodically review existing
supporting tests of program changes was     applications to assure that documentation is kept
inadequate. Specifically, we found that     current and accurately reflects the cumulative affects
user and programmer test plans and          of program changes made over time.
                                                        6
                                                                                                ATTACHMENT 2


               Condition                                    Recommendation                          Status as of
                                                                                                      9/30/04
results are not documented to
demonstrate that programs are properly
tested and approved prior to being placed
in operation.

OCIO requires basic documents for all
systems, including user requirements,
design documents, test plans,
implementation, and acceptance
documents. It also requires retention of
User Request Forms that detail program
changes; these forms are required to be
signed by the programmer and the user to
acknowledge acceptance of the change.
Compliance is not enforced, because
control procedures do not exist to ensure
that documentation is being updated and
maintained.


SYSTEM SOFTWARE CONTROLS:

OIG Report 4-19, Finding 4A: Limited        Recommendation 4A: Limited Official Use and               Partially
Official Use and Restricted Distribution    Restricted Distribution                                  completed


OIG Report 4-19, Finding 4B: Limited        Recommendation 4B: Limited Official Use and                 Open
Official Use and Restricted Distribution    Restricted Distribution


OIG Report 4-19, Finding 4C:                Recommendation 4C: We recommend that the                  Partially
Although OCIO installed a network           Chief Information Officer:                                complete
intrusion detection system (IDS) and        (1) Perform a security assessment to determine the
contracted with a vendor to monitor IDS          most effective placement of the 20 new sensors.   OCIO
activities and maintain and review all                                                             recognized the
IDS activity logs, OCIO had not             (2) Revise the IDS vendor’s contract as necessary      need for
developed written policies or procedures        for performance factors established in             installing
to establish requirements and ensure            Recommendation No. 4A of this report.              additional server
performance.                                                                                       sensor devices
                                                                                                   on the network.
                                                                                                   OCIO plans to
                                                                                                   add another 20
                                                                                                   sensors during
                                                                                                   FY 2004.
                                                                                                   OCIO has not,
                                                                                                   however,
                                                                                                   performed a
                                                                                                   security analysis
                                                                                                   to determine the
                                                                                                   most effective
                                                                                                   locations for the
                                                                                                   sensors.

                                                                                                   See finding 4B
                                                                                                   in Attachment 1.

                                                        7
                                                                                                     ATTACHMENT 2


               Condition                                       Recommendation                           Status as of
                                                                                                          9/30/04


OIG Report 4-19, Finding 4D: In FY            Recommendation 4D: We recommend that the                     Open
2003, OCIO obtained password-cracking         Chief Information Officer enhance its password test
software to periodically test user            procedures to screen all passwords for compliance       See finding 4C
password configurations for compliance        with password configuration policy.                     in Attachment
with SBA's password configuration                                                                     1.
requirements and to determine if users        Recommendation 4E: We recommend that the
were using easily guessed passwords.          Chief Information Officer in consultation with
Although OCIO’s test process achieved         OHCM, develop procedures for escalating
the stated goals, the test process was        administrative consequences for personnel identified
neither effective nor efficient and created   as not compliant, such as:
potential security exposures if cracked
passwords were inadvertently or                  •   Advise first-time offenders to immediately
intentionally released to unauthorized               change their passwords to conform to the
individuals. OCIO cracks all user                    policy.
password files and assesses the time
required to crack as an indicator of             •   Temporarily disable accounts for a second
complexity. For passwords that crack                 offense, and notify the account owner and
quickly, OCIO determines what caused                 immediate supervisor.
the password to crack and advises the
user of corrective action. This two-stage        •   Suspend accounts for a third offense, and
test approach is time consuming and                  send a request for adverse personnel action to
unnecessary to determine compliance                  the office director, OHCM, and the account
with password configuration                          holder.
requirements.


OIG Report 4-19, Finding 4E: Our              Recommendation 4F: We recommend that the                     Open
network analysis and tests identified         Chief Information Officer conduct periodic network
significant numbers of security               tests to ensure that security features are properly
weaknesses with the Windows 2000              and fully utilized.
configuration for SBA workstations and
servers residing on the network.
Additionally, OCIO had not completed
the Windows 2000 implementation
project; thus certain security and
administrative controls found in the
Native Mode could not be installed.
These weaknesses substantially reduce
the level of assurance that management
can place on the adequacy of security
controls to properly secure SBA data and
network operations from unauthorized
activities and safeguard SBA
information technology assets from
harm. See Attachment 4 for a complete
description of the specific weaknesses
identified.


OIG Report 3-20, Finding 4A: In our           Recommendation 4A: We recommend that the                    Partially
previous audit, we recommended that           Chief Information Officer fully implement the              completed
SBA enhance policies, procedures and          planned upgraded intrusion detection system and
technical capabilities to monitor the         reporting/monitoring tools. Additionally, we            See finding 4B in

                                                          8
                                                                                             ATTACHMENT 2


              Condition                                   Recommendation                           Status as of
                                                                                                      9/30/04
network for suspicious activity. SBA       recommend that the Chief Information Officer          Attachment 1.
agreed with this recommendation and        develop a rule base and procedures for monitoring
initially projected a completion date of   network activity and create and document escalation
September 30, 2002. This date was later    procedures and timelines for reporting suspicious
modified to February 28, 2003.             activity to OCIO security. Further, we recommend
[FOIA Ex. 2]                               that Chief Information Officer test escalation
                                           procedures to ensure that responsible personnel
                                           report questionable activities in a timely manner.




OIG Report 3-20, Finding 4B: OCIO                                                                   Partially
                                           Recommendation 4B: We recommend that the
has not developed the means to test user                                                            Complete
                                           Chief Information Officer develop and implement
password configurations to enforce
                                           policies and procedures to require:
SBA's password configuration                                                                     Although
requirements. Also, OCIO has not             •   All network administration accounts to be       OCIO’s test
identified and removed invalid or                password-protected and require passwords on     process
unnecessary group accounts shared by a           those accounts to be changed every 30 days.     achieved the
number of individuals.                       •   Periodic review of all administrative-level     stated goals, the
                                                 accounts and a limit placed on the number of    test process was
                                                 individuals granted this access.                neither effective
                                             •   SBA to annually review its use of group         nor efficient and
                                                 accounts for only those group accounts that     created potential
                                                 are valid and necessary for sound network       security
                                                 management and SBA to prohibit the use of       exposures if
                                                 generic accounts.                               cracked
                                             •   All system users to use more robust             passwords were
                                                 passwords, to include the combination of        inadvertently or
                                                 alpha, numeric and special characters.          intentionally
                                                                                                 released to
                                                                                                 unauthorized
                                                                                                 individuals.

                                                                                                 See finding 4C
                                                                                                 in Attachment
                                                                                                 1.


OIG Report 3-20, Finding 4C: We            Recommendation 4C: We recommend that the                   Open
                                                      9
                                                                                                  ATTACHMENT 2


               Condition                                     Recommendation                          Status as of
                                                                                                       9/30/04
noted instances where personnel were         Chief Information Officer enforce the procedures
using unauthorized remote access             currently in place and remove all unauthorized
software. Recently, OCIO has not             remote desktop software from workstations.
developed and implemented written
procedures for the proper use of remote
access software.


OIG Report 3-20, Finding 4D: The             Recommendation 4D: We recommend that the                   Open
configuration of Windows 2000 on SBA         Chief Information Officer provide a standard
workstations and servers is not adequate     configuration for Windows 2000 consistent with
to ensure security over SBA data and         NIST and NSA guidelines. We further recommend
network operations.                          that the Chief Information Officer complete the
                                             implementation of Windows 2000, including the
                                             Exchange servers, so that Windows 2000 can run in
                                             Native mode, and security features can be properly
                                             and fully utilized.


OIG Report 3-20, Finding 4F: The             Recommendation 4F: We recommend that the                   Open
OCIO has not applied the most recent         Chief Information Officer adhere to the policies
relevant patches to the Windows 2000         previously developed and apply all relevant           For audit
operating system. While OCIO has             appropriate patches necessary to bring Windows        tracking
developed procedures related to              2000 up to the current patch version as               purposes, OIG
obtaining, testing and applying software     recommended by the vendor.                            Report 3-20,
patches as they are released, these                                                                Finding
procedures are not being consistently                                                              Recommendation
followed                                                                                           4F was closed.
                                                                                                   OIG Report 4-
                                                                                                   19, Finding 4B,
                                                                                                   Recommendation
                                                                                                   4B(1) is open.

                                                                                                   Although SBA
                                                                                                   asserts that it
                                                                                                   timely installs
                                                                                                   patches and fixes
                                                                                                   to its general
                                                                                                   support systems,
                                                                                                   audit testing
                                                                                                   contradicts this
                                                                                                   assertion.


OIG Report 3-20, Finding 4G:                 Recommendation 4G: We recommended in our                   Open
Administrators and security personnel        Information System Controls Report for FY 2001
are not adequately trained to allow them     (OIG 02-18) that OCIO provide appropriate training    For audit
to fully understand their responsibilities   and periodic retraining to security personnel and     tracking
and handle possible security violations.     administrators to allow them to perform security      purposes, OIG
                                             responsibilities effectively. SBA agreed with this    Report 3-20,
                                             recommendation and projected a completion date of     Finding
                                             March 31, 2003. Therefore, we are making no           Recommendation
                                             recommendation at this time.                          4G was closed.
                                                                                                   However, the
                                                                                                   finding remains

                                                        10
                                                                                                     ATTACHMENT 2


               Condition                                      Recommendation                             Status as of
                                                                                                           9/30/04
                                                                                                       open.

                                                                                                       See finding 1C in
                                                                                                       Attachment 1.
SEGREGATION OF DUTY
CONTROLS:

OIG Report 4-19, Finding 5A: Proper          Recommendation 5A: We recommend that the                       Closed
separation of duties for changes to          Chief Financial Officer instruct DFC management to
JAAMS and FRIS had been identified on        take steps necessary to ensure that individuals are not
the System Implementation Change             allowed to complete incompatible areas during the
Control Form used at DFC; these              system implementation and change process. In
separation-of-duties controls were not,      addition, management should review all change
however, fully enforced by management.       control forms to verify that proper separation is in
Individuals were completing more than        place.
one area of the form, thus subverting
controls intended to ensure proper
separation of duties. Inadequate
separation of duties increases the
potential for unauthorized code to be
implemented and placed into production
that could result in unauthorized
activities.


OIG Report 1-12, Finding 5A: SBA             Recommendation 5A: We recommend that the                       Open
generally has appropriate segregation of     Chief Information Officer, in conjunction with the
duties throughout its information system     appropriate program offices continue its efforts to
environment; individuals generally do        identify and eliminate incompatible duties,
not have the ability to conduct              responsibilities, and functions.
unauthorized actions or gain
unauthorized access to assets or records.
However, some instances of inadequate
segregation of duties were identified.
For example, one individual at a field
office was the security officer for LAS, a
senior loan officer on LAS, and had
supervisory privileges on the Field
Cashiering System.


SERVICE CONTINUITY
CONTROLS:

OIG Reports 3-20, and 4-19, Finding          (Findings were repeated from audit 3-20 to audit               Open
6: SBA cannot ensure that operations         4-19)
can be brought back within an                                                                          Business
acceptable period of time in the event of    Recommendation 6A: We recommend that the                  Resumption
a disaster or disruption in service. We      Chief Operating Officer develop an agency-wide            plans remain
reviewed service continuity plans and        business impact analysis that captures all identified     incomplete and
procedures at SBA headquarters and           needs within stated recovery times. At a minimum,         untested.
field sites at DFC, Sacramento Disaster      the analysis would identify:
Area office, and Fresno Commercial
Loan Service Center. We noted                   •   Critical SBA business processes.
weaknesses in business resumption plans

                                                         11
                                                                                                      ATTACHMENT 2


               Condition                                     Recommendation                              Status as of
                                                                                                           9/30/04
(BRP) and service continuity policies          •   General support systems and major
and procedures at all three field sites.           applications that would be needed in a
                                                   recovery process to support critical SBA
The following are specific exceptions              business processes.
noted by field site:
                                               •   Required recovery time periods.
• DFC had not developed or
  documented a test plan for testing its    Recommendation 6B: We recommend that the
  BRP and had not established a target      Chief Operating Officer finalize the draft COOP, to
  date for completing testing.              include the following items:

• The Sacramento Disaster Area Office          •   List of personnel and other resources related
  did not have a documented BRP, its               to the critical system that would be needed in
  tape backup procedures did not meet              a recovery process.
  SBA requirements, and it did not store
  tapes offsite.                               •   Provisions for plan testing by each field
                                                   office, disaster office, and headquarters at
• The Fresno Commercial Loan Service               least every 3 years.
  Center had not tested or updated its
  BRP since 2001 and did not have              •   Provisions for annual training on plan
  adequate off-site storage of the                 execution.
  office’s backup tapes.
                                               •   Requirements for distribution of the plan to
The SBA Headquarters Continuity of                 appropriate individuals.
Operations Plan (COOP) was
successfully tested in March 2003. In
                                               •   Identification of established contracts with
September 2003, SBA moved the                      external vendors as necessary to support the
JAAMS general ledger system from
                                                   business continuity plan and disaster
Eagan, Minnesota, to a new data
                                                   recovery plan.
processing facility located in Tempe,
Arizona. We understand the JAAMS
                                               •   Assurance that all field sites have current,
COOP was tested after fieldwork ended.
                                                   documented, and tested business resumption
                                                   plans in place.
Without adequate service continuity
controls, SBA has reduced assurance
                                               •   Provisions to inform all field sites of their
that it can provide an orderly and
                                                   responsibilities for keeping the business
reasonable recovery process.
                                                   resumption plans current and tested.
Weaknesses with SBA’s COOP were
previously noted in OIG Audit Report           •   Provisions to ensure that all field sites adhere
No. OIG 02-18. In that report, we                  to SBA policy requiring backup tapes to be
recommended that the Chief Operating               stored offsite.
Officer (COO) complete a formal
business impact analysis in support of         •   Provisions to ensure that BRPs include
COOP and ensure the COOP properly                  procedures for safekeeping critical business
addressed the required elements                    documents, such as loan files, to ensure their
(Recommendation Nos. 6A and 6B). We                availability.
consider the COO’s actions to date as
non-responsive. Additionally, at the exit
meeting, the CIO stated that OCIO
cannot take responsibility for all facets
of SBA’s disaster recovery and business
contingency planning and tests.




                                                       12
                                                                                                     ATTACHMENT 2


                Condition                                     Recommendation                            Status as of
                                                                                                          9/30/04
7A: SBA's mainframe computer
operations disaster recovery hot-site test    Recommendation 7A: We recommended in our                     Open
did not include a test of the                 Information System Controls Report for FY 2001
communication linkage between                 (OIG 02-18) that OCIO revise current contractual
headquarters and the hot-site facility.       agreements with its communication supplier to
                                              include setting up a temporary dedicated line
                                              between headquarters or a major business center
                                              and the hot-site mainframe recovery facility in the
                                              event of a problem. OCIO agreed with this
                                              recommendation and projected a completion date of
                                              July 1, 2003.

7B: Weak mainframe computer operation         Recommendation 7B: We recommended in our                     Open
control increases the risk of lost LAS data   Information System Controls Report for FY 2001
and data processing capability and            (OIG 02-18) that SBA enter into an agreement with
hinders SBA’s ability to carry out its        the third-party mainframe service provider to
daily functions. We identified physical       correct identified weaknesses and allow periodic
and management access control                 reviews of controls by SBA representatives. SBA
weaknesses with the mainframe computer        agreed with this recommendation and projected a
data processing center and computer           completion date of March 31, 2003.
room. Specifically, we identified the
following conditions:                         We also recommended in our Information System
                                              Controls Report for FY 2001 (OIG 02-18) that SBA
Facility management has not established       continue to pursue with the General Services
internal control to ensure that:              Administration a requirement for the third-party
                                              mainframe service provider to undergo an annual
Console logs are reviewed on a regular        SAS 70 type of audit of its data processing facility
basis.                                        and make audit results available to SBA. SBA
Only current employees have console           agreed with this recommendation and projected a
user accounts.                                completion date of August 31, 2005.
 Console account passwords comply with
 SOP 90-47.
Application Controls:

OIG Report 3-20, Finding 8C: We               Recommendation 8E: We recommend that the                     Open
noted that JAAMS does not support             Chief Financial Officer in conjunction with
maintaining a password history,               OCIO update systematic password and log-in              See finding 2E
disable a user after a failed number of       controls in JAAMS to be consistent with SBA             in Attachment
                                                                                                      1.
log-in attempts, or prevent concurrent        standard password policy. These controls
log in by the same user ID.                   should include creation of a password history
                                              log to prevent repeat use of passwords,
                                              systematic controls to lock out users after a
                                              number of failed log-in attempts, and systematic
                                              controls to prevent concurrent logins from the
                                              same user ID.



OIG Report 3-20, Finding 8C: We               Recommendation 8G: We recommend that the                   Partially
noted that several users have excessive       Chief Information Officer in conjunction with              Complete
access privileges, and several have access    OCFO require the JAAMS security
differing from their access request forms.                                                            While the
                                              administrator to perform an annual review of
Procedures for periodically reviewing                                                                 procedures were
user access do not exist.                     JAAMS users to ensure that no user has                  implemented to
                                              excessive access, and that all users are current,
                                                         13
                                                                                     ATTACHMENT 2


              Condition                              Recommendation                      Status as of
                                                                                           9/30/04
                                       authorized JAAMS users.                        perform an
                                                                                      annual review,
                                                                                      documentation
                                                                                      did not exist to
                                                                                      ensure that the
                                                                                      review was
                                                                                      performed
                                                                                      annually.


OIG Report 3-20, Finding 8C: We        Recommendation 8I: We recommend the CIO           Partially
noted that security officers within    provide adequate training and periodic            Complete
OCIO do not have the requisite         retraining to enable JAAMS security
functional knowledge and have not      administrators to effectively perform their    While initial
received the appropriate training to                                                  training was
                                       duties
                                                                                      provided to
adequately administer JAAMS
                                                                                      JAAM security
security.                                                                             personnel,
                                                                                      documentation
                                                                                      did not exist to
                                                                                      ensure that
                                                                                      training was
                                                                                      performed
                                                                                      periodically.




                                                14
                                                                      ATTACHMENT 3-A


                     U.S. Small Business Administration
                            Washington, D.C.




                                                   January 28,2005


To:    Robert G. Seabrooks
       Assistant Inspector General for Auditing

      /S/ Original Signed
From: Jerry E. Williams
      Acting Chief Information Officer

Subject:   Comments on Draft Audit of SBA's Information System Controls

        Attached please find the response and comments from the Office of the Chief
Information Officer to the subject audit. We appreciated the opportunity to review this
report and we look forward to the improvements that should result from acting on many
of its recommendations.

      Our response and comments are attached within the body of the draft report and
accompanied by four additional Attachments A - D. We are of course available to
discuss the details and background of our comments at your request. If you have any
questions please contact Dan Vellucci of my staff by telephone on
202-205-[FOIA Ex. 2].

Attachments




                                            1
                                                                      ATTACHMENT 3-A


Page 4, FY 2004 Results:
OCIO Response and Comments (bullet 5 above, underlined): OCIO can neither agree nor
disagree with this assessment because its meaning is unclear. OCIO requests that OIG
modify this language to make the following distinction: Is the assertion that the Sun
Solaris OS baseline configuration itself is not acceptable or that the baseline
configuration is not adequately documented? If the issue is related to documentation,
OCIO would request that the report language clarify this fact and provide specific
recommendations with respect to completing or improving deficient areas of system
documentation. If the issue is related to the system's actual configuration, OCIO would
request that the report language list specific system configuration deficiencies, so that
developers can be assigned to correct these areas immediately.

Recommendation 1B: OCIO Response: Partially Agree. We agree with the intent of the
recommendation, which is aimed at assuring adequate human resource coverage for IT
operations and systems management. We will develop internal procedures and
recommended practices, such as cross-training and job shifts planning, for responsible
managers to consider using. However, we do not intend to formulate or suggest
personnel polices with regard to mandatory annual leave scheduling, which we believe to
be a substantive matter directed by the Office of Human Capital Management and
implemented by individual managers.

Recommendation 2A: OCIO Response: Partially Agree. OMB has directed OCIO to
selectively automate SBA's paper forms and associated work processes. Using Metastorm
eWORKS electronic forms and workflow software, OCIO will include these access
requests within that effort.

Recommendation 2C: OCIO Response: Agree. As stated in response to Recommendation
2A OCIO is currently automating SBA's paper forms, utilizing Metastorm eWORKS
workflow software and recommends using electronic forms for the IT systems and
network access process. We note that in the case of temporary or emergency access a
manual process may be necessary as an alternative.

Recommendation 2D: OCIO Response: Agree. We agree with the recommendation but
note that considerable effort and cost would be involved in implementing these
modifications, which would be applied to a Loan Accounting System that is aged and due
for re-engineering Our estimate for making LAS changes alone would be approximately
$1.5 - 2.0 million. That amount is not available within the budget at this time.

Recommendation 2F: OCIO Response: Agree. We note that some open network accounts
have been extended for previous SBA executives. We have requested policy guidance
from the Office of General Counsel on this matter to establish appropriate account de-
activation deadlines for certain executives.

Recommendation 2G: OCIO Response: OCIO will define minimum requirements for MA
and GSS audit logs addressing each platform and including retention requirements;
assign responsibility for review and retention of GSS audit logs; work with system



                                            2
                                                                     ATTACHMENT 3-A


owners to assure the review and retention of MA audit logs. The system owner for the
MAs will be responsible for assigning responsibility for review and retention of MA
audit logs. During Certification and Accreditation, IT Security will validate the
implementation. The response to Sybase issues is covered in our reply to
Recommendation 2-J below.

Note: Considerable effort and cost would be involved in implementing these
modifications, which would be applied to a Loan Accounting System that is aged and due
for re-engineering. Our estimate for making LAS changes with audit log capabilities
would be approximately $6.0 million. That amount is not available within the budget at
this time.

Recommendation 2I: OCIO Response: Agree. OCIO will review the CIS benchmark for
Oracle and set the minimum standards for SBA Oracle database management systems.
OCIO will work with ODA and CFO to implement these standards. During Certification
and Accreditation, IT Security will validate the implementation.

Recommendation 2J: OCIO Response; Partially Agree. An initial workplan for FISCAM
Attachment 7 tasks is enclosed at Attachment A.

Recommendation 3A: OCIO Response and Comments: Disagree. OCIO agrees with the
recommendation to inform SBA personnel about use of the SDM and we believe we are
already doing that. OCIO is currently improving and expanding existing routine
communications to inform SBA personnel of the SDM and the requirement to follow its
methodology. Additionally, OCIO already conducts periodic audits or project reviews to
ensure compliance with the SDM, as part of the Agency-wide Project Health Check
process that the OCIO organization manages. (Examples at Attachment B.) Accordingly,
OCIO requests that this recommendation be removed from the report, because OCIO has
completed action on both parts of this recommendation and does not consider them
outstanding issues. OCIO views these recommendations as best practices that the
organization has already implemented.

OCIO Response and Comments (para 1 above). OCIO disagrees with the statement
regarding SDM standards as applied to LAS, and requests that it be deleted. OCIO has
documented the change control process for all mainframe applications, including LAS,
and this change control process is fully consistent with and based upon the SBA SDM.
Attached at C. are: (1) Mainframe Change Control Process Policy; (2) Mainframe
Change Control Process Flow Diagrams; and (3) Mainframe Change Control Form.
These documents are institutionalized parts of OCIO's change control procedures and
detail the requirements for mainframe configuration changes.
See Attachment D.
1. Mainframe Development to Production Software Release Process
2. Mainframe Change Control Process Flowchart
3. Mainframe Change Control Form




                                           3
                                                                       ATTACHMENT 3-A


OCIO Response and Comments; (para. 3 above). OCIO disagrees with the statement
regarding periodic audits to verify SDM usage, and requests that the statement be deleted.
OCIO periodically conducts Project Health Checks with all major projects (those
documented in Exhibits 300) to monitor project performance and compliance with the
SDM. There is a standard format/Health Check Evaluation Form and standard criteria
that are used for all Health Checks, including compliance with the SDM, to evaluate the
health of a project. OCIO has conducted and documented Health Checks for all major
projects except LAS. Attached at B. are three out-briefs from completed Health Checks,
covering the Disaster Credit Management System (DCMS), the Entrepreneurial
Development Management Information System (EDMIS), and the Office of General
Contracting and Business Development's 8(a) and SDB Electronic Application. If the
concern is a Health Check for LAS itself, OCIO requests that the report be amended to
state only that "periodic reviews of LAS applications have not been completed." The
current report language appears to be overly broad and does not accurately depict OCIO's
agency-wide SDM compliance monitoring activities as supported by standard tools and
processes. We are enclosing a copy of several completed Health Checks as examples.
(Attachment A.)

Recommendation 4A: OCIO Response: Agree

Recommendation 4C: OCIO Response: Agree. OCIO's Network Integration Branch
(NIB) will assess the current Windows 2000 Server standard configuration. Once
complete, NIB will research NIST and NSA Windows 2000 Server guidelines and
evaluate each recommended item for its necessity and affect on SBA servers, then
comply as deemed necessary.

Recommendation 5B: OCIO Response: Disagree. OCIO believes this responsibility lies
with the system owner (CFO) since they alone have the specific knowledge required to
determine whether appropriate segregation of duties and responsibilities are being
maintained based upon access permissions granted to users.

Recommendation 5C: OCIO Response: Agree.

Recommendation 6A: OCIO Response: Agree. We agree with this recommendation but
believe that all COOP related activities, except those directly related to critical IT
systems, should be managed at the Chief Operating Officer level within the Agency.




                                            4
                                                                                       ATTACHMENT 3-B




                                                                U.S. Small Business Administration
                                                                Office of the Chief Financial Officer
                                                                       Washington DC 20416




            To:         Robert G. Seabrooks
                        Assistant Inspector General for Audit

                  /S/ Original Signed
            From: Thomas Dumaresq
                  Chief Financial Officer

            CC:         Jennifer Main
                        Deputy Chief Financial Officer

                        Jerry Williams
                        Acting Chief Information Officer

            Date:       January 25, 2005


            Re:         Response to Audit of SBA’s Information System Controls for Fiscal Year
                        2004



This is a response to the report issued by the Office of the Inspector General titled
“Audit of SBA’s Information System Controls”.
The Office of the Chief Financial Officer has received four recommendations that are
related to the administrative accounting system. Our response to each
recommendation is stated below.
        •     Recommendation 2B: We recommend that the Chief Financial Officer:

                    -      Ensure access to JAAMS is granted only when requested via Form
                           2200;

                    -      Ensure all access request forms are maintained on file for future
                           reference. Access request forms should be periodically traced to
                           active user accounts to make sure access in JAAMS agrees with
                           the access that was requested and approved.

        •     Response to 2B: Based on our discussion and Ethel Mathews agreement,
              this recommendation will be re-directed to the Office of the Chief
              Information Officer.

        •     Recommendation 2E: We recommend that the Chief Financial Officer
              continue with the planned upgrade of the Oracle application and database
              for JAAMS. Security settings should be enabled to enforce strong
              password controls, including password history and automatic lock-out after
              a set number of failed login attempts.




                                                           5
                                                                               ATTACHMENT 3-B


        •   Response to 2E: We agree. We have completed the Upgrade to Oracle
            Federal Financials 11.5.9, and have implemented the appropriate password
            complexity enforcement and history. Patchset FND-H implements lockout
            after a number of failed attempts, and will be implemented prior to the end
            of the second quarter. All non-application database accounts have been
            assigned to appropriate profiles that enforce complexity, history, and
            lockout. Application database accounts remain with the default profile,
            however compensating controls are being developed to ensure the use of
            FNDCPASS on a periodic basis consistent with best practices and SOP 90-
            47.

        •   Recommendation 2H: We recommend that the Office of the Chief Financial
            Officer:

                -   Require that all activities by Oracle database administrators be
                    logged

                -   Require periodic review of database logs by someone outside of
                    Corio, preferably an individual within OFS or OCIO Security with an
                    understanding of the production Oracle database.         Audit logs
                    should not be reviewed by the individuals being audited.

                -   Take steps necessary to ensure all activity in JAAMS involving
                    access to and modifications of sensitive or critical files at the
                    application level are logged

                -   Assign responsibility for periodic review of JAAMS application logs

        •   Response to 2H: We agree. We will work with our ASP to extend auditing
            to all accounts assigned to ASPUSER, SBAUSER, and ASPSYS profiles.
            Furthermore, we will establish procedures for weekly emailing and review of
            the activity in both the Form level auditing logs as well as the database level
            logs. Target completion is the end of the second quarter.

        •   Recommendation 5A: We recommend that the Chief Financial Officer
            identify individuals with incompatible or excessive responsibilities within
            JAAMS. These include the following privileges: Alert Manager, Application
            Developer, Federal Administrator, General Ledger Super User, SBA Credit
            Card, SBA NFC Payroll Processing, Systems Administration, Systems
            Maintenance, and Translation Manager.

        •   Response to 5A: We agree with this recommendation.


The report also assigns recommendations for 2C and 2I to the Office of the Chief Information
Officer in conjunction with the Office of the Chief Financial Officer. We will work with the OCIO on
the two recommendations.
I thank you for the opportunity to respond to the audit report. We are looking forward to
continuing to work with the Office of the Inspector General on future audits.




                                                 6
                                                                ATTACHMENT 3-C


From:           Brechbiel, Richard
Sent:           Monday, January 31, 2005 3:27 PM
To:             Harai, Richard K.
Cc:             Gates, M. Catherine; Stoehr, Melissa A.
Subject:        RE: Issuance of Audit Report on SBA Information System
                Controls


With regard to the Recommendation 1A I am not comfortable having a policy
that requires mandatory vacations for employees. Annual leave is earned and
employees are allowed to used it at their discretion. For example, if an employee
is attempting to build their balance to the 240 hour carry over limit I do not
believe that we can require them to use annual leave in lieu of that effort. It
might be possible to have periodic job rotations for employees in such positions.
However, this would assume there was sufficient staff with the requisite
clearances to allow such temporary assignments. While assignment of work is a
traditional right of management, we may have to involve the Union as it could be
viewed as a change in working conditions.




                                        1
                                                                                ATTACHMENT 3-D


                      Audit of SBA’s Information System Controls
                                   January 28, 2005
                OCIO/OHCM/OCFO Response with Auditor Comments
    (Certain Recommendations were changed and renumbered from the Draft Report)
1. Entity-Wide Security Program Controls

Recommendation 1A: Partially Agree – SBA is not comfortable having a policy that requires
mandatory vacations for employees. Annual leave is earned and employees are allowed to used
it at their discretion. For example, if an employee is attempting to build their balance to the 240
hour carry over limit, SBA believes it cannot require them to use annual leave in lieu of that effort.
It might be possible to have periodic job rotations for employees in such positions. However, this
would assume there was sufficient staff with the requisite clearances to allow such temporary
assignments. While assignment of work is a traditional right of management, we may have to
involve the Union as it could be viewed as a change in working conditions.

Auditor Response: Some method of periodic job rotations for employees in sensitive IT positions
will be needed. Adjudication of the recommendation will occur in the audit follow-up process.

Recommendation 1B: Partially Agree – SBA agrees with the intent of the recommendation,
which is aimed at assuring adequate human resource coverage for IT operations and systems
management. We will develop internal procedures and recommended practices, such as cross-
training and job shifts planning, for responsible managers to consider using. However, we do not
intend to formulate or suggest personnel polices with regard to mandatory annual leave
scheduling, which we believe to be a substantive matter directed by the Office of Human Capital
Management and implemented by individual managers.

Auditor Response: SBA will need to adopt a formal policy between the Office of Human Capital
Management and the Office of Chief Information Officer to enact periodic job rotations for
employees in sensitive IT positions. The policy should be part of an updated SOP 90-47.
Adjudication of the recommendation will occur in the audit follow-up process.

2. Access Controls

Recommendation 2A: Partially Agree – OMB has directed OCIO to selectively automate SBA's
paper forms and associated work processes. Using Metastorm eWORKS electronic forms and
workflow software, OCIO will include these access requests within that effort.

Auditor Response: Some method of tracing or annually reviewing access request forms to
determine if access requests are documented will need to be incorporated into this process.

Recommendation 2B: Based on our discussion and Ethel Mathews agreement, this
recommendation will be re-directed to the Office of the Chief Information Officer.

Auditor Response: The recommendation was redirected to the SBA Computer Security Officer
within the Office of Chief Information Officer.

Recommendation 2C: Agree – As stated in response to Recommendation 2A OCIO is currently
automating SBA's paper forms, utilizing Metastorm eWORKS workflow software and
recommends using electronic forms for the IT systems and network access process. We note that
in the case of temporary or emergency access a manual process may be necessary as an
alternative.



                                                  1
                                                                              ATTACHMENT 3-D



Recommendation 2D: Auditor Response – Original recommendation 2D was separated into 2D
for the Network and 2E for LAS for the final report. SBA only responded to the LAS portion [2E]
of the recommendation.

Recommendation 2E (Original 2D): Agree – We agree with the recommendation but note that
considerable effort and cost would be involved in implementing these modifications, which would
be applied to a Loan Accounting System that is aged and due for re-engineering Our estimate for
making LAS changes alone would be approximately $1.5 - 2.0 million. That amount is not
available within the budget at this time.

Auditor Response: Because of the information within LAS and its importance to the Agency,
SBA must decide whether to implement the corrective actions necessary to ensure that LAS meets
its security requirements as defined by OMB Circular A-130 and NIST 800 series publications or,
SBA must decide that implementing such security requirements is not cost-effective and begin the
process of replacing LAS with a system which can meet the security requirements. SBA cannot
agree with the recommendation and at the same time state that it is not going to implement the
recommendation and thus properly secure its information.

Recommendation 2F (Original 2E): We agree. We have completed the Upgrade to Oracle
Federal Financials 11.5.9, and have implemented the appropriate password complexity
enforcement and history. Patchset FND-H implements lockout after a number of failed attempts,
and will be implemented prior to the end of the second quarter. All non-application database
accounts have been assigned to appropriate profiles that enforce complexity, history, and lockout.
Application database accounts remain with the default profile, however compensating controls are
being developed to ensure the use of FNDCPASS on a periodic basis consistent with best practices
and SOP 90-47.

Recommendation 2G (Original 2F): Agree. We note that some open network accounts have
been extended for previous SBA executives. We have requested policy guidance from the Office
of General Counsel on this matter to establish appropriate account de-activation deadlines for
certain executives.

Recommendation 2H (Original 2F): Auditor Response – Original recommendation 2F was
separated into 2G for the Network and 2H for periodically reviewing all General Support Systems
and Major Applications for the final report.

Recommendation 2I (Original 2G): OCIO will define minimum requirements for MA and GSS
audit logs addressing each platform and including retention requirements; assign responsibility for
review and retention of GSS audit logs; work with system owners to assure the review and
retention of MA audit logs. The system owner for the MAs will be responsible for assigning
responsibility for review and retention of MA audit logs. During Certification and Accreditation,
IT Security will validate the implementation. The response to Sybase issues is covered in our
reply to Recommendation 2-J [2-L] below.

Note: Considerable effort and cost would be involved in implementing these modifications, which
would be applied to a Loan Accounting System that is aged and due for re-engineering. Our
estimate for making LAS changes with audit log capabilities would be approximately $6.0 million.
That amount is not available within the budget at this time.




                                                2
                                                                             ATTACHMENT 3-D


Auditor Response: Because of the information within LAS and its importance to the Agency,
SBA must decide whether to implement the corrective actions necessary to ensure that LAS meets
its security requirements as defined by OMB Circular A-130 and NIST 800 series publications, or,
SBA must decide that implementing such security requirements is not cost-effective and begin the
process of replacing LAS with a system which can meet the security requirements. SBA cannot
agree with the recommendation and at the same time state that it is not going to implement the
recommendation and thus properly secure its information.

Recommendation 2J (Original 2H): We agree. We will work with our ASP to extend auditing
to all accounts assigned to ASPUSER, SBAUSER, and ASPSYS profiles. Furthermore, we will
establish procedures for weekly emailing and review of the activity in both the Form level auditing
logs as well as the database level logs. Target completion is the end of the second quarter.

Recommendation 2K (Original 2I): Agree. OCIO will review the CIS benchmark for Oracle and
set the minimum standards for SBA Oracle database management systems. OCIO will work with
ODA and CFO to implement these standards. During Certification and Accreditation, IT Security
will validate the implementation.

Recommendation 2L (Original 2J): Partially Agree. An initial workplan for FISCAM
Attachment 7 tasks is enclosed at Attachment A.

Auditor Response: We acknowledge management’s plan, however, the plan does not address all
critical areas in an adequate manner (i.e., adequate logging does not only include failed login
attempts). Management should take corrective actions for all identified discrepancies. We will
evaluate remediation efforts during the FY05 audit.

3. Application Software Development and Program Change Controls

Recommendation 3A: Disagree. OCIO agrees with the recommendation to inform SBA
personnel about use of the SDM and we believe we are already doing that. OCIO is currently
improving and expanding existing routine communications to inform SBA personnel of the SDM
and the requirement to follow its methodology. Additionally, OCIO already conducts periodic
audits or project reviews to ensure compliance with the SDM, as part of the Agency-wide Project
Health Check process that the OCIO organization manages. (Examples at Attachment B.)
Accordingly, OCIO requests that this recommendation be removed from the report, because OCIO
has completed action on both parts of this recommendation and does not consider them
outstanding issues. OCIO views these recommendations as best practices that the organization has
already implemented.

OCIO Response and Comments (para 1 above). OCIO disagrees with the statement
regarding SDM standards as applied to LAS, and requests that it be deleted. OCIO has
documented the change control process for all mainframe applications, including LAS, and this
change control process is fully consistent with and based upon the SBA SDM. Attached at C. are:
(1) Mainframe Change Control Process Policy; (2) Mainframe Change Control Process Flow
Diagrams; and (3) Mainframe Change Control Form. These documents are institutionalized parts
of OCIO's change control procedures and detail the requirements for mainframe configuration
changes.

See Attachment D.
1. Mainframe Development to Production Software Release Process
2. Mainframe Change Control Process Flowchart


                                                3
                                                                              ATTACHMENT 3-D


3. Mainframe Change Control Form

OCIO Response and Comments; (para. 3 above). OCIO disagrees with the statement regarding
periodic audits to verify SDM usage, and requests that the statement be deleted. OCIO
periodically conducts Project Health Checks with all major projects (those documented in Exhibits
300) to monitor project performance and compliance with the SDM. There is a standard
format/Health Check Evaluation Form and standard criteria that are used for all Health Checks,
including compliance with the SDM, to evaluate the health of a project. OCIO has conducted and
documented Health Checks for all major projects except LAS. Attached at B. are three out-briefs
from completed Health Checks, covering the Disaster Credit Management System (DCMS), the
Entrepreneurial Development Management Information System (EDMIS), and the Office of
General Contracting and Business Development's 8(a) and SDB Electronic Application. If the
concern is a Health Check for LAS itself, OCIO requests that the report be amended to state only
that "periodic reviews of LAS applications have not been completed." The current report language
appears to be overly broad and does not accurately depict OCIO's agency-wide SDM compliance
monitoring activities as supported by standard tools and processes. We are enclosing a copy of
several completed Health Checks as examples. (Attachment A.)

Auditor Response: The audit finding and recommendation were reworded to be more exactly
what was identified during fieldwork. LAS programmers were unaware of SBA’s SDM and
proper change control procedures that should have been in effect for making changes to code,
testing and acceptance of software. Therefore, we believe that better training in configuration
management is warranted along with more defined procedures for programming, testing, and
acceptance.

4. System Software Controls

Recommendation 4A: Agree

Recommendation 4B: SBA did not respond to recommendation 4B.

Recommendation 4C: Agree. OCIO's Network Integration Branch (NIB) will assess the current
Windows 2000 Server standard configuration. Once complete, NIB will research NIST and NSA
Windows 2000 Server guidelines and evaluate each recommended item for its necessity and affect
on SBA servers, then comply as deemed necessary.

5. Segregation of Duty Controls

Recommendation 5A: We agree with this recommendation.

Recommendation 5B: Disagree. OCIO believes this responsibility lies with the system owner
(CFO) since they alone have the specific knowledge required to determine whether appropriate
segregation of duties and responsibilities are being maintained based upon access permissions
granted to users.

Auditors Response: While we believe this is true for JAAMS (to an extent as OCIO is still
responsible for aspects of security administration for JAAMS), the responsibility for LAS resides
entirely with OCIO. Since this entire recommendation discusses the problems with LAS, then this
response is not adequate to address this recommendation. Given that OCIO Security has the
responsibility for security for systems that cross SBA Office boundaries, OCIO is responsible for



                                                4
                                                                                 ATTACHMENT 3-D


ensuring the LAS security officers are not also acting as users of the system.

6. Service Continuity Controls
Recommendation 6A: Agree. We agree with this recommendation but believe that all COOP
related activities, except those directly related to critical IT systems, should be managed at the
Chief Operating Officer level within the Agency.

Recommendation 6B: Auditor Response – Original recommendation 6A was separated into two
recommendations to separate the IT aspects of the recommendation from the operational aspects
of SBA’s COOP program.




                                                  5
                                                                                                         ATTACHMENT 9



                                           REPORT DISTRIBUTION


Recipient                                                                                                             Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

U.S. Government Accountability Office .................................................................1
